<html>
<title> - GAO YAOJIE: PHYSICIAN, GRANDMOTHER, AND WHISTLEBLOWER IN CHINA'S FIGHT AGAINST HIV/AIDS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





GAO YAOJIE: PHYSICIAN, GRANDMOTHER, AND WHISTLEBLOWER IN CHINA'S FIGHT 
                            AGAINST HIV/AIDS

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 3, 2009

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov



                  U.S. GOVERNMENT PRINTING OFFICE
55-539 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                             CO N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Charlotte Oldham-Moore, Staff Director, 
  Congressional-Executive Commission on China....................     1
Story, Abigail, Manager of Outreach and Special Projects, 
  Congressional-Executive Commission on China....................     1
Yaojie, Gao, physician, grandmother, and whistleblower in China's 
  fight against HIV/AIDS.........................................     4

                                APPENDIX
                          Prepared Statements

Yaojie, Gao......................................................    17

 
GAO YAOJIE: PHYSICIAN, GRANDMOTHER, AND WHISTLEBLOWER IN CHINA'S FIGHT 
                            AGAINST HIV/AIDS

                              ----------                              


                       THURSDAY, DECEMBER 3, 2009

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 10:07 
a.m., in room 628, Dirksen Senate Office Building, Charlotte 
Oldham-Moore, Staff Director, presiding.
    Also present: Douglas Grob, Cochairman's Senior Staff 
Member; Abigail Story, Manager of Outreach and Special 
Projects; Kara Abramson, Advocacy Director; and Anna Brettell, 
Senior Advisor, Congressional-Executive Commission on China.

 OPENING STATEMENT OF CHARLOTTE OLDHAM-MOORE, STAFF DIRECTOR, 
          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Ms. Oldham-Moore. I think we're ready to begin.
    Good morning. We are very honored at the CECC to be hosting 
Dr. Gao Yaojie this morning. Before we turn to the program, I 
just wanted to make some quick announcements. The first, for 
those of you who are new to the CECC, please visit our Web 
site, www.cecc.gov. You can sign up for our releases, daily 
bulletins, and newsletters.
    Our senior researcher on public health, Abbey Story will 
frame our discussion for today.
    Before I turn to Abbey, I want to recognize the exceptional 
people with us in the audience today. We have Dr. Wang, who has 
done extraordinary work on HIV/AIDS in Henan Province and has 
faced many of the difficult personal experiences that Dr. Gao 
has confronted. Thank you for your presence here today.
    I also want to acknowledge Mr. Jin Zhong, who is here. He's 
the publisher of Dr. Gao's book. If you want more information 
about Dr. Gao's book, please talk to Mr. Jin Zhong afterward.
    Abbey, please begin.

  STATEMENT OF ABIGAIL STORY, MANAGER OF OUTREACH AND SPECIAL 
     PROJECTS, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Ms. Story. On Tuesday, World AIDS Day, about 20 people took 
over the stage at a Red Cross event in Beijing to petition on 
behalf of their family members who had been infected with HIV 
through blood transfusions. They demanded not legal redress for 
injustice, not monetary retribution, not due punishment for the 
corrupt officials involved, but simply the treatment that their 
sick loved ones could not afford. These are just a handful of 
the countless numbers who have been brutally impacted by the 
HIV/AIDS epidemic in China.
    In February 2009, the Ministry of Health announced that 
HIV/AIDS had become ``the deadliest infectious disease in 
China.'' The Ministry of Health and U.N. AIDS have estimated 
the number of HIV infections in China to be between 560,000 and 
920,000, and the number of AIDS patients to be between 97,000 
and 112,000; however, several NGOs both inside and outside 
China have argued that actual numbers are much higher. Testing 
and surveillance techniques are limited and reporting of cases 
remains incomplete. Realistic figures are therefore difficult, 
if not impossible, to ascertain.
    China's first officially reported case of AIDS was found in 
an Argentine traveler who died from the disease in a Beijing 
hospital in 1985. In 1989, 146 cases of HIV were reported in 
the injecting-drug-user community in Henan Province, but the 
disease was viewed as having been ``contained.''
    In the early- to mid-1990s, impromptu blood and plasma 
donation stations, established by enterprising businessmen and 
government officials, began to emerge in rural areas. Medical 
procedures in these facilities were often unregulated, needles 
and tubing were re-used, blood from donors was mixed, and once 
plasma had been removed, it was re-injected into donors of the 
same blood type. Such practices resulted in the rapid spread of 
blood-borne diseases, including HIV.
    Whistleblowers such as Dr. Gao Yaojie and Dr. Wang Shuping 
independently began to link an outbreak of HIV infections in 
several rural villages to these tainted blood and plasma 
collection centers. Entire villages had been affected and 
children had been orphaned as their parents died of AIDS. Yet 
when these doctors reported their findings, they were met with 
authorities' harassment, intimidation, and even physical 
beatings.
    In 1996, Dr. Gao Yaojie launched an aggressive campaign of 
education, prevention, and treatment starting in Henan Province 
and spreading across China. But even with these efforts, and 
others, HIV/AIDS cases were rapidly on the rise. By 1998, HIV 
had spread to all 31 provincial-level jurisdictions in China 
and was in a phase of exponential growth. Government 
authorities, however, maintained a policy of denial toward the 
spread of the disease in China, preferring to call it a 
``limited'' problem resulting from contact with the West. By 
2005, China had an estimated 650,000 cases of HIV infections, 
according to a joint report by U.N. AIDS, the World Health 
Organization, and the PRC Ministry of Health.
    Today, HIV/AIDS continues to spread in China and is 
especially, but not exclusively, linked to needle sharing among 
intravenous drug users, unsanitary medical practices in 
underground blood and plasma centers, unprotected sex among 
both heterosexuals and homosexuals, as well as in the 
commercial sex industry specifically--which has grown in recent 
years due in part to increased mobility of migrant workers. The 
spread of HIV/AIDS in China is also linked to the general 
stigma, fear, and discrimination that promote silence on the 
issue instead of raising awareness.
    The exposure of the official cover-up of SARS in 2003 
brought change in the Chinese Government's attitude toward HIV/
AIDS. Lest their dirty laundry be aired again to the global 
community about covering up another infectious disease 
epidemic, authorities instead began to acknowledge that there 
was an HIV/AIDS problem in China and that they were going to 
proactively address it.
    Then-Vice Premier and stand-in Minister of Health Madame Wu 
Yi announced that HIV/AIDS statistics were no longer considered 
a state secret, and admitted cover-up of HIV/AIDS cases at the 
local level. The number of central- and local-level specialized 
laws and regulations on HIV/AIDS has increased steadily since 
2003, and the government has initiated public service 
campaigns, including education programs, testing and treatment 
programs, free condom programs, and free single-use needle 
programs. These steps mark a progression from rejection to 
recognition of HIV/AIDS issues by the government.
    With the increase in official attention to, and action on, 
the HIV/AIDS crisis has come increased crackdown on civil 
society efforts. Non-governmental organizations and individual 
activists play an invaluable role in HIV/AIDS education, 
prevention, and treatment in China, but they face ongoing 
government interference in many forms. Civil society 
organizations continue to be subject to strict registration 
requirements that limit their ability to legally function 
independently from the government.
    Individual HIV/AIDS activists also continue to face serious 
obstacles in their work, including arbitrary detention, 
harassment, surveillance, intimidation, restrictions on travel, 
and other violations of their fundamental human rights. One 
such HIV/AIDS advocate, Hu Jia, is in prison today, serving a 
three-and-a-half-year sentence for inciting subversion of state 
power. His wife and daughter are under constant surveillance 
and are often prohibited from leaving their home.
    We are honored today to have with us Dr. Gao Yaojie, who, 
despite enduring similar pressure, continues to fight for the 
cause of HIV/AIDS prevention, education, and treatment in 
China.
    I will now turn over the floor to Charlotte to introduce 
Dr. Gao.
    Ms. Oldham-Moore. Dr. Gao Yaojie is a renowned gynecologist 
who sounded the alarm on a growing HIV/AIDS epidemic tied to 
contaminated blood banks in Henan Province in the late 1990s. 
In 1996, she launched a vigorous AIDS education, prevention, 
and treatment campaign, relying on her own personal funds and 
awards proceeds to support her work.
    Despite authorities' continued harassment, intimidation, 
and limits on her personal freedom, Dr. Gao has visited several 
hundred villages in over 10 provinces, treated over 1,000 
people, worked extensively with AIDS orphans, printed over 1 
million copies of HIV prevention pamphlets and newsletters, and 
self-published her own book, ``Prevention of AIDS and Sexually-
Transmitted Diseases.''
    Dr. Gao has received an extraordinary array of awards for 
her work on HIV/AIDS issues, including the Jonathan Mann Award 
for Health and Human Rights, the government-run Central China 
Television (CCTV) ``Ten People Who Touched China in 2003'' 
award, as well as the ``Vital Voices Global Leadership'' Award.
    Dr. Gao's autobiography, ``The Soul of Dr. Gao Yaojie,'' 
was published in Chinese in July 2008 by the Mirror Publishing 
Company in Hong Kong. An updated version of her book, ``China's 
AIDS Plague: 10,000 Letters'' was released on December 1, 2009. 
Okay. Thank you, Dr. Gao. Please begin.

     STATEMENT OF GAO YAOJIE, PHYSICIAN, GRANDMOTHER, AND 
        WHISTLEBLOWER IN CHINA'S FIGHT AGAINST HIV/AIDS

    Dr. Gao [via translator, Mr. Bob Fu]. Good morning, ladies 
and gentlemen. Today I would like to introduce to you some true 
situations about the AIDS epidemic in China. Actually, the 
first report about AIDS came out in 1982, and then in 1984 
Professor Zeng Yi, an academic with the China Academy of 
Sciences in Beijing, reported blood contamination by the AIDS 
virus in the blood banks of some hospitals. But Mr. Zeng Yi 
told me, since he was working under government control, he 
could not report directly so I was encouraged to report first.
    Then in 1988, the AIDS epidemic was reported and spread in 
Hebei Province first, and then in 1995, Dr. Wang Shuping first 
reported about this epidemic and her discovery of the tainted 
blood. I started my AIDS activist work from 1996, so this is 
the 13th year of my work.
    For the sake of time, I will ask my translator to read a 
portion of my testimony.
    Mr. Fu. Dr. Gao's written testimony, you have a copy 
already. She has a few places she wants to emphasize.
    Number one, the blood disaster and AIDS are national 
disasters. At present, the AIDS epidemic is rising in China. If 
you step in a village into an AIDS epidemic area, you will see 
newly-built, but vacant, houses. The neighbors will tell you 
that the house's owner built it with money earned by selling 
blood. Now the owner has died of AIDS and many new tombs have 
emerged in the fields.
    According to an official report, the number of people 
infected with AIDS has grown by about 30 percent annually. For 
instance, from the following reports you can tell: from China 
Philanthropy Times in Heilongjiang Province, they reported on 
November 30, 2005; and Chinese Business Morning Review in Jilin 
Province reported on December 5, 2005; and Chinese Business 
Review in Liaoning Province reported on December 1, 2005; and 
North News reported on November 30, 2005; and Lanzhou Morning 
Post in Gansu Province reported on November 30, 2005.
    In the 1990s, blood stations emerged like mushrooms after 
the rain. AIDS, a disease never heard of 20 years ago, is now 
spreading to all 31 provinces on the mainland of China. You may 
have heard that Henan Province is the highest prevalence area 
for, and the birthplace of, AIDS, but that is not true. AIDS is 
spreading even more seriously in other provinces, such as 
Shanxi, Shaanxi, Shandong, Anhui, Hebei, Hunan, Guangdong, 
Guangxi, Yunnan, Guizhou, Sichuan, and the three northeast 
provinces.
    You may know Wenlou village in Henan Province, a famous 
AIDS village, but it is only one typical example of AIDS 
villages and a template set by the government. Who knows how 
many AIDS villages like Wenlou there are in the whole country? 
How many of them can be treated in the same way Wenlou is 
treated? The spread of AIDS in China is staggering.
    According to official figures, in 2006, China had 840,000 
AIDS patients. Only 5 percent of the AIDS virus carriers can be 
located and the other 95 percent have merged into the 
population. Since 1992, the contaminated blood has flown to the 
whole country, from Shanghai in the east, to Urumqi in the 
west, from Heilongjiang in the north, to Guangzhou and Hainan 
in the south.
    ``Blood-mongers'' sell large volumes of contaminated blood 
to bio-pharmaceutical companies in Shanghai, Wuhan, and other 
places to produce a series of nutritional medicines, such as 
albumin, globulin, interferon, and blood platelet components. 
These medicines have been sold throughout the whole country.
    In the 1990s, the whole country was under a cash rush. The 
head of the Health Department in Henan Province proposed a new 
idea for earning money: encouraging the establishment of blood 
stations by all. The idea was called a ``money-earning policy 
depending on seals internally and blood externally.'' They 
depended on official seals to issue certificates and collect 
money. They encouraged the local health departments and blood-
mongers to organize farmers to sell blood. Apart from the blood 
stations run by health departments, many others were 
established by various enterprises, associations, and military 
units. In the early to mid-1990s, there were over 270 official 
and ``legal'' blood stations and countless illegal ones in 
Henan alone.
    The official blood stations have been the most active 
advocates for the ``blood economy.'' In those years, eye-
catching posters saying ``Honor to Blood Donors: Healing the 
Wounded and Rescuing the Dying'' were common on the walls of 
hospitals in Henan. Blood-mongers told blood sellers, ``Blood 
is like water in the well. It remains at the same amount no 
matter how much you have donated. Blood donation is like 
substituting old blood with new blood. It is good for the 
metabolism. Blood donors won't suffer from high blood pressure. 
Your body will benefit from it.''
    Disaster befell during the devilish back-transfusion. In 
addition, there were many deadly loopholes in the entire 
process. First, after blood extraction, both the disinfected 
scissors for cutting the blood transfusion tube and the 
disinfected clamp for clotting the blood bag would contact the 
freshly-extracted blood.
    The separating centrifuge used then had 12 containers 
inside it, and each would accommodate two bags of blood. It was 
easy for the blood bag to be damaged during the separation. If 
the operator of the blood station operated casually and failed 
to discard the damaged blood bag, the red blood cells 
contaminated by the blood of other people would be transfused 
back into the body of the blood seller. If one of the blood 
sellers had AIDS or hepatitis, other blood sellers would all be 
infected.
    Since 1999, many people have died of a ``strange disease'' 
in many places in Henan, including Dongguan village of Suixian 
County of Shangqiu, Shangcai County of Zhumadian, Wenlou 
village, and Donghu village of Xincai County, and Qulou Village 
of Weishi County of Kaifeng. People did not know that the 
perpetrator was AIDS until too many people had died.
    When the fact that all these people were blood sellers was 
made known, the public began to understand the source of the 
disaster to be blood selling.
    By October 2004, 12 people had died in the infamous Wenlou 
village, Shangcai County, Henan Province. Once, during a period 
of 10 days, eight people died.
    In the same year, 34 people died of AIDS in the neighboring 
Houyang village, with the oldest aged 54 and the youngest 29, 
and either sex making up half of the death toll. In eight 
families, three generations were infected with AIDS and one 
family went extinct. In one family, 10 members were infected 
with AIDS, being the most amount of all infected families. Six 
members of this family have died, three in 2004. A pair of 
brothers died of AIDS within the shortest interval of 100 days.
    Dongguan village of Suixian County had over 700 people, and 
half of them sold blood in those days. Among these blood 
sellers, over 100 were infected with the AIDS virus and some of 
them, mostly young and middle-aged, had shown symptoms. Before 
they were aware of AIDS, many people had died and their 
symptoms were quite similar to that of AIDS patients. Nobody 
could recall the exact death toll.
    At this moment, the officials used their trump card: 
classifying AIDS as ``secret'' and stifling media disclosure of 
the truth. In fact, over a dozen reporters were dismissed and 
expelled by Henan Province. Outsiders were prohibited from 
visiting the AIDS villages, no matter what their intentions 
were, investigating truth or helping AIDS patients and orphans. 
Those who dared speak out were punished.
    In this way, the truth about the AIDS epidemic in China has 
been covered up. Even today, after more than two decades, the 
truth about AIDS in mainland China is still unavailable. Many 
people at home and abroad only know that there are AIDS 
patients in Wenlou village, Shangcai County, Henan Province. 
What they do not know is that there are many unknown AIDS 
epidemic areas in China.
    According to the latest official data, China had over 1 
million AIDS virus carriers. Wang Longde, Vice Minister of the 
Ministry of Health, said on November 7, 2005, that ``only 5 
percent of the carriers could be located and the other 95 
percent had merged into the population.''
    Blood trading is rampant in China. Many farmers sell blood 
from place to place. They may be in Henan or Hebei today, and 
in Shanxi or Shaanxi tomorrow, and in Shandong or Anhui the day 
after that. Each of the mobile blood sellers hold three to five 
``blood donor certificates'' and they are professional blood 
sellers. These are reported in Fujian Daily, China Youth, 
Yangcheng Evening, Finance Magazine, and China Economic Times, 
and reporters from the China Economic Times carried out three 
rounds of investigation.
    During a group consultation on April 7, 1996, I discovered 
a patient infected with AIDS due to a blood transfusion during 
a uterus operation. As she had received blood from a blood 
bank, my keen sense told me that she would not be the only one 
infected with the AIDS virus this way. It was strange, however, 
that all of her family members, particularly her husband, did 
not catch AIDS.
    After knowing my concern, an official from the provincial 
health department retorted, ``You are good at making a scene. 
How can you be so lucky to see so many AIDS patients? '' From 
then on, I began to doubt the past hearsay about AIDS spread by 
drug abuse and sexual promiscuity. Recently, I learned that, 
different from the situation in other countries, AIDS is spread 
in China mainly through ``blood economy.'' However, government 
officials do not bear responsibility. They are using every 
trick possible to cover up the truth, safeguard their personal 
interests and the interests of their own group, and keep 
themselves in power. They have no concern about people's life 
and death. I had to investigate the spread of AIDS on my own.
    I found many people infected with AIDS via blood or plasma 
transfusion. Take child patients, for example. They cannot take 
drugs or be engaged in sexual activity. Their parents or other 
close acquaintances showed negative results during HIV-antibody 
testing. They received blood from AIDS patients and they were 
totally innocent.
    Seeing economic growth, the current government regards 
China as a harmonious society and a rising power in the world. 
However, what I saw in the countryside were poor people, badly 
in need of clothing and food. Violent cases happen from time to 
time in the whole country, and natural and man-made disasters 
occur one-by-one, especially the AIDS epidemic. AIDS will 
directly affect China's economic development and this is an 
undeniable fact. However, present-day Chinese have three 
characteristics: telling lies, practicing fraud, and faking.
    In AIDS-related trade, there are numerous quacks--scam 
artists--and fake medical practitioners. There are now even 
fake patients. Chen Fengyao, a self-proclaimed businessman from 
Taiwan, has fooled people from northeast China to Henan. He 
spent 50,000 renminbi on hiring each fake AIDS patient to speak 
in his favor. He claimed to have cured over 300 AIDS patients.
    I find what the Chinese authorities dread most is that the 
true situation of the AIDS epidemic will be made known to 
foreign leaders. When former U.S. President Clinton came to 
give a speech at Tsinghua University, I was invited to attend 
the AIDS and SARS International Seminar held on November 10, 
2003, and asked to give a speech in the afternoon. I arrived in 
Beijing on November 7 and settled in at ``Tsinghua Unisplendour 
International Center'' at about 2 o'clock p.m. on November 9.
    At 5 o'clock p.m., Shi Ji, Party secretary of my unit in 
charge of personnel, and Zhu Jinpin, chief of the old cadre 
department, suddenly entered my room and said that they came to 
see me. Giving them no more chance to speak, I left my room and 
went to Beijing Normal University with the head of the Law 
Institute of Beijing Normal University. Before I left, they 
asked when I would be coming back. I said ``in the evening.'' 
That night I stayed at the Beijing Normal University and did 
not return to the hotel. At 8 o'clock a.m. the next morning 
when I was to enter the meeting room, both Shi and Zhu were 
waiting for me at the entrance. They said, ``Do not mistake us, 
we just want to have a word with you.'' I said, ``That is 
unnecessary. I will attend this meeting. When I come back, it 
is up to you to take whatever measures you like.'' Then a staff 
member of Tsinghua University's meeting organizing committee 
urged me to enter the meeting room. Shi and Zhu wanted to enter 
the room, too, but were stopped by the meeting organizing 
committee.
    In the afternoon, foreign media made public the incident 
and asked, ``Who said Gao Yaojie had personal freedom? '' On 
November 12, I returned to Zhengzhou. Now, six years have 
passed and no leader has ever talked to me about this incident.
    In 2007, the United States awarded me the ``Vital Voices'' 
Award, but the authorities obstructed my going to the United 
States and put me under house arrest for half a month. Thanks 
to the efforts of Mrs. Hillary Clinton, China finally let me 
go, however, they asked me to establish a foundation in the 
name of Gao Yaojie upon my arrival in the United States. I 
refused to do so. I was still under surveillance even in the 
United States and they blocked my information channels, which 
angered Zeng Jinyan, the wife of Hu Jia, to the point of tears.
    After staying in the United States for over a month, many 
friends asked me to settle down in the United States. They 
said, ``For your safety, do not go back.'' My career was in 
China and there are many AIDS patients and orphans who needed 
me badly. I could not bear leaving them, so I returned.
    In February 2009, the U.S. Secretary of State Hillary 
Clinton visited China and requested to see me on February 22. 
The authorities agreed, ostensibly. I arrived in Beijing on 
February 19, and the following day they dispatched Zhao Fenli, 
a long-retired Vice Party Committee Secretary of TCM College, 
to Beijing, too. They even used the police to try to stop me. 
Zhao thought I might stay at Zeng Jinyan's home, so the 
national security personnel blocked Zeng's front door, 
prohibiting anyone from going out or in. In fact, I did not 
stay in Zeng's home. After two days of futile searching, Zhao 
failed to find me. As for me, I was honored to be able to meet 
with the Secretary.
    According to some relevant literature, the AIDS virus, or 
HIV, belongs to a human slow virus group within a slow virus 
genus in the reverse virus family. There are different gene 
types and biological types and molecule types. In central 
China, most AIDS virus infection cases are caused by B-subtype 
virus, which is rarely spread via sexual activity.
    Let me wrap it up.
    Ms. Oldham-Moore. Bob, do we have the complete testimony 
out front?
    Mr. Fu. Pardon me?
    Ms. Oldham-Moore. Do we have of the complete testimony out 
front?
    Mr. Fu. Yes.
    Ms. Oldham-Moore. Great. Okay. Good.
    Mr. Fu. Yes.
    Let me finish this that she wants to emphasize. At the end 
of March 2009, a lady in the French Embassy called me: ``France 
has decided to award you the `Women's Human Rights' Award.''
    On the morning of May 6, my telephone line was cut again by 
the authorities. At noon, a friend came to pick me up. She 
said, ``You'd better leave. Trouble comes again.'' We had no 
time for lunch and immediately took a bus to Beijing. Three 
days later, I went to Langfang city. Over half a month later, I 
went to Sichuan. In early June, I went to Guangzhou, and on 
June 12 I settled down in Minglang village, in the suburbs of 
Guangzhou, a quite remote area.
    In the past three to four years, I have realized that the 
AIDS epidemic is still serious in rural areas and blood 
stations have turned underground. Now there is a plasma station 
in Sunjiawan of Yunxian county, Shiyan city, Hubei Province. 
The operators organized over 10,000 women from the mountainous 
areas to sell blood at 168 renminbi per 600 milliliters, a 
China Youth article reported on November 4, 2009. There are 
many more undisclosed blood stations. So long as nobody speaks 
out, the officials can make a fortune and keep their grip on 
power.
    They have five methods to deal with those who speak out: 
(1) buying off with money--giving bribes, poverty relief, 
disaster compensations, and so on; (2) material temptation--
presenting food, articles, furniture, electric appliances, even 
houses, automobiles, and so on; (3) giving honors--awards, 
promotions, Party membership, and so on; (4) showing severe 
looks--suppression, punishment, threatening, monitoring, house 
arrest, even making rumors, and so on; and (5) the last resort 
for those unyielding to the aforesaid methods: fabricating a 
charge to frame them and send them to reeducation through 
labor, criminal detention, and even imprisonment.
    These five methods are so effective, that many who have 
dared to speak out before have surrendered to temptation and 
threat. Some of them never speak out again. Some ``able men'' 
make an about-face turn and begin singing songs of praise: what 
a peaceful and prosperous society: AIDS is set under forceful 
control and the blood disaster is gone. They predict that in 
the future, AIDS will be spread mainly by drug abuse and sexual 
activity. Of course, the officials who have made a fortune by 
selling blood have also made excellent political achievements. 
Their personal interests and the interests of their group are 
maintained. No one cares about the well-being of the ordinary 
people.
    Thank you.
    Ms. Oldham-Moore. Thank you, Bob Fu, for doing that great 
service for us.
    Now we turn to questions from the audience for Dr. Gao. 
When you stand up, you've really got to project your voice 
because there's a fan in the background.
    Does anybody have any questions for Dr. Gao? Yes. Hi. 
Please say who you are if you want to, and your professional 
affiliation.
    Audience Participant.  [Off microphone].
    Ms. Oldham-Moore. For those who couldn't hear in the back, 
U.N. AIDS said last week that the main source of AIDS in China 
is sexual conduct, and I would think, intravenous drug use. Her 
question is, to Dr. Gao: what is your assessment on the main 
causes?
    Dr. Gao. [Responded in Chinese.]
    Ms. Oldham-Moore. She's giving you, I guess, a CD that will 
answer your question.
    Mr. Fu. She said: ``The first case I found is through blood 
transfusion and many Chinese farmers sold blood and got 
infected. So, I have these CDs with many photos showing these 
facts. They are the results of my investigation.''
    Ms. Oldham-Moore. Okay. Thank you. Did that address it?
    Dr. Gao [via translator, Mr. Bob Fu]. The blood donation, 
the blood transfusion, and the blood selling has never stopped. 
So even in January 2008, I met with 58 AIDS-infected patients 
who were infected through the blood transfusion. Over 200 
people rose to rebellion and tried to report about the truth 
about AIDS over 600 times and they were all suppressed by the 
government.
    I do acknowledge the existence of those infected with AIDS 
through sexual activity, but only about 10 percent of them. 
According to Professor Gao, he surveyed and found, among 500 
people, only about 50 people were infected through sexual 
activities. The type of AIDS virus is so radically different in 
China than in other foreign countries, and there are A, B, C, 
D, and E types of the AIDS virus. China belongs to the sub-B 
type and it's rarely transmitted through sexual activities or 
drug use. Among the first patients that I found, among his 10 
family members, only 1 was infected. The rest of the nine had 
no AIDS. That one was infected through blood transfusion.
    My next book is a conclusion of my 13 years of 
investigation and work. This little boy [shows picture] was 
born in 2004, but got a blood transfusion in 2005, and died in 
2006, this lovely kid. He couldn't do prostitution or drug 
abuse; he was young, only a little over two years old. I don't 
want to get all my books published by one publisher because I 
could be accused by the government as collaborating for profit 
with one publisher.
    Ms. Oldham-Moore. Let's get another question from the 
audience. Is that okay?
    Mr. Fu. Yes.
    Ms. Oldham-Moore. Okay. Great.
    Another question, please? Anybody? Yes, ma'am.
    Ms. Leopold. My name is Jennifer Leopold. I'm with RTI 
International, so we--implementing--largely around--HIV. My 
question is, why not ensure the blood supply? I don't 
understand what the motivation is for the government. If this 
is a financially lucrative business, the more community--the 
less they're going to give blood, so if you want to be 
competent and continue to build and sell blood, you would want 
to make sure that people are confident that it's a safe 
practice and continue the business as a lucrative entity. So I 
don't understand; maybe you can explain. What is the government 
motivation for not securing the blood supply?
    Dr. Gao [via translator, Mr. Bob Fu]. Your question is very 
hard to answer because the government officials are busy 
selling and buying official positions and they got corrupted. 
So, they're so busy doing their business and they won't care 
about this. So, we have a different culture; don't use American 
measures to measure China.
    Ms. Oldham-Moore. Shellie Bressler, please.
    Ms. Bressler. Hi. I am Shellie Bressler. I'm with the 
Senate Foreign Relations Committee and I handle HIV/AIDS issues 
for Senator Lugar. One of the questions my boss is very 
interested in is the AIDS orphans. In these villages where 
you've had a lot of family members die, who takes care of the 
AIDS orphans? Does the government take any responsibility to 
these children?
    Ms. Oldham-Moore. Bob, did you hear that?
    Mr. Fu. Yes.
    Ms. Oldham-Moore. Okay.
    Mr. Fu. Actually, Mr. To is here.
    Ms. Oldham-Moore. Oh.
    Mr. Fu. Yes. He's the foundation chairman.
    Ms. Oldham-Moore. Yes. Do you want him to speak to this? Is 
that what you're saying? He runs the AIDS Orphans Foundation.
    Dr. To. My name is Chung To. I work with the AIDS-impacted 
children in China. Just to answer quickly, the government has 
been building AIDS orphanages. That's where most of the 
children who are AIDS impacted stay. Sometimes they're taken 
care of by their grandparents or other relatives. The group 
that I work with, Chi Heng Foundation, has helped over 10,000 
children impacted by AIDS in these villages. I'm--get 
resources--with other children in the villages. But there are 
other--who are also----
    Ms. Oldham-Moore. Sir, if you don't mind me asking, just to 
follow up a little bit on the question that was posed by the 
Henan Province project, what is your understanding or 
assessment of the failure to ensure the blood supplies?
    Dr. To. I think Dr. Gao's answer was most correct in saying 
that, although it may not be for the long-term benefit of the 
industry, when you're down to the local level, there are 
corrupt officials who are more interested in personal short-
term gains rather than long-term development. I think we can 
see the same thing in--there might be long-term sustainability, 
but when you're down to the local level it's going to affect--
corrupt officials who want to make some money to do things. So 
in principle, it might be down to the local level----
    Mr. Fu. So Dr. Gao also mentioned that of course the 
government wants to set up some model village with some orphans 
being taken care of, but when she and Mr. To traveled to those 
villages to find and look for these AIDS orphans, they were 
even chased and pursued by the government people.
    Dr. Gao [via translator, Mr. Bob Fu]. There is another 
serious problem actually besides the AIDS orphans, which is the 
AIDS elderly, because the middle-aged died because of AIDS 
infection and they can't labor and work anymore, so nobody 
cares about them. So, it has become more serious now.
    Ms. Oldham-Moore. Kara Abramson, please.
    Ms. Abramson. I'm Kara Abramson with the Congressional-
Executive Commission on China. Dr. Gao, I was wondering if you 
could talk about some of the challenges that HIV/AIDS patients 
who are not Han Chinese face inside of China. Are there 
specific efforts to address these communities? Are there 
adequate materials in languages other than Mandarin Chinese?
    Dr. Gao [via translator, Mr. Bob Fu]. This is actually more 
terrible, the minority people who are infected, because they 
live primarily in remote areas and there's no transportation, 
no easy way to get there. The most serious thing is, they were 
charged, accused of being infected through immorality--sexual 
activity or drug use--so they're ashamed and they don't want to 
tell the truth about the AIDS infection.
    The most serious challenge is the fake doctors, fake 
medicine, and the use of fraudulent examples, like, they will 
pay 50,000 yuan to hire fake patients with AIDS, telling the 
world that they are healed by these medicines. Unfortunately, 
the government actually puts more resources toward dealing with 
people like me than handling those fake doctors and fake 
patients.
    Like, somebody claimed that he was born from the eighth 
generation of Chinese medicine, a medical doctor, with 
expertise on healing AIDS. I said that's stupid because for 
eight generations, how long it would be, and how long AIDS has 
been in China. The other problem is, even some organizations 
claim they're rescuing and helping these orphans, but their 
main intention and purpose is to make financial gains.
    Unfortunately, the government has paid no attention to 
dealing with them because they receive bribes by the corrupted 
officials. They even fooled the United Nations and the U.S. 
Embassy, these fake rescuers. They would pull a few children to 
dance on the streets saying that they were healed and being 
taken care of, and then people start donating money, and really 
it's for their own financial gain.
    It's such an ugly situation, what these people did, that in 
the name of rescuing AIDS orphans, they're making their own 
gain, buying luxury houses. They are so despicable. Most of 
these so-called rescuers and helpers of these AIDS orphans are 
fake, and very few organizations are really helping. They are 
just making their own gains.
    Ms. Oldham-Moore. Except for him. He's the real deal.
    Dr. Gao [via translator, Mr. Bob Fu]. One county Party 
secretary of Shangcai County, Henan Province, received $500 
million yuan just out of this economy, the blood economy.
    Ms. Oldham-Moore. Okay. The next question. Abbey, do you 
want to----
    Ms. Story. I would like to ask a question that probably 
many in the audience are asking right now. In short, what can 
be done? I think we hear a lot of the negative, we hear about 
corruption on the local level, we hear about NGOs and 
foundations going in and doing the best they can, but being 
thwarted by the situation in that particular locality. I'm 
wondering, what do you, Dr. Gao, feel can be done to help this 
situation?
    Dr. Gao [via translator, Mr. Bob Fu]. It's a social system 
problem. The question is a serious one, and it's hard for me to 
answer because it's a systematic problem, a political system 
problem, and because there are no officials without corruption 
in China.
    When I was traveling to a village one time I saw one AIDS 
infected woman hang herself, with her little baby pulling her 
mom's leg. By the time I released the mom, she was already 
dead. It's so hard. Who can really solve this problem? I'm 
already 82 years old and I didn't see lots of hope in solving 
this. These are the three major issues in China: telling lies, 
making fake claims, and fooling people.
    They are on all sides of the room with children. One Party 
official in Kaifeng city said, each child will receive 160 yuan 
for AIDS, and he would hold 100 yuan for himself. He said if 
anybody dared to report about this, they would receive zero 
support. So the only way I can answer your question is with my 
tears. So many people still, on all sides of China, did not 
know this truth. I'm already 83 years old.
    There's no other reason for me to continue to stay in this 
world except to expose the truth with my books. I just want to 
awaken people in the outside, to know the truth, and to help 
them. Like, in this village when I visited there and saw both 
the mom and the child were infected, we have no other way to go 
but to just tell and leave behind the stories. That's very 
common in such a terrible situation.
    The real problem is, those with the AIDS virus usually 
survive 10 to 20 years. Most affected are illiterate and 
uneducated and they are not able to speak up. So unlike the 
victims of the poisoned milk powder, these AIDS patients have a 
death rate 10 times greater than those that are infected by the 
poisoned milk, but who knows about them? They are now able to 
speak for themselves about this disease. Who has slept on a bed 
like this for all of you?
    Ms. Oldham-Moore. Anybody else? I think we'll wrap up in a 
few minutes. Does anybody else want to ask a question?
    Yes. Doug Grob, please.
    Mr. Grob. Doug Grob, Congressional-Executive Commission on 
China. I'm wondering to what extent problems with the HIV/AIDS 
epidemic in China exhibits variance along urban and rural 
lines. Many social and economic problems in China look very 
different in cities than they do in the countryside. Is 
protection of the blood supply and outreach to people living 
with HIV/AIDS, different in cities in some way, in some 
identifiable way, than it is in rural areas? Have you heard of 
any city or anyplace in China where programs have gotten some 
traction, made some progress in some way.
    Dr. Gao [via translator, Mr. Bob Fu]. The government set up 
many examples of villages or stations, like Wenlou village. 
There patients were treated, they were shown to the world, 
they're doing a good job. But who cares about those who are 
unknown? Who cares about those in the remote areas? Just let 
them die. The so-called economic boom is only benefiting that 
very small minority group of people. How terrible for those in 
the majority, and many are still living in extreme poverty.
    In January, I even received some photos showing just 
terrible poverty and people cannot sustain. At the same time, 
these government officials are busy selling official positions 
and getting financial gain. Even in Henan Province, the Party 
secretary recently was dismissed and was it was reported he was 
selling official ranks. Some officers were just busy promoting 
themselves, without really caring about anybody else.
    These Chinese, these blood sellers, actually they were 
forced to sell the blood. They were in extreme poverty and they 
sold their blood in order to pay tuition for their children, 
they sold their blood in order to pay the fines for the family 
planning officials. They sold blood to buy fertilizer for their 
own land. But at the same time, those government officials that 
you meet when you go to China and see the skyscrapers and 
beautiful things and all their mistresses, what are they doing? 
They're just going to South Korea and spending the taxpayers' 
money, making cosmetic operations to make them look beautiful, 
like the deputy governor of Henan Province.
    Ms. Oldham-Moore. Wow.
    Anna Brettell, please.
    Ms. Brettell. I'm Anna Brettell with the Congressional-
Executive Commission on China. I know that there are NGOs and 
foundations from several countries that work with and give 
grants to Chinese groups that focus on HIV/AIDS. Most of the 
Chinese ``nonprofit'' groups are associated with the 
government, but there are some independent groups; there may be 
300 to 400 groups in China now. Most international funding is 
given to government agencies and government-associated NGOs. 
However, the more independent NGOs can be more effective at 
reaching some populations in China than the government-
associated groups and I am wondering if there are effective 
ways that international funding can be channeled to the more 
independent NGOs in China?
    Mr. Fu. So the foreign fund, right? Or China?
    Dr. Gao. [Responded in Chinese.]
    Ms. Brettell. Actually, not very much money gets down to 
the NGOs, so I was wondering why.
    Dr. Gao  [via translator, Mr. Bob Fu]. So it doesn't matter 
how much there is. The problem is, most of them are not doing 
the job. They're just busy making personal gains, buying houses 
for themselves. Even if you delivered some funding to the 
children, then they will get it back from the children for 
their own personal gains.
    Ms. Oldham-Moore. Okay.
    Dr. Gao  [via translator, Mr. Bob Fu]. There's no such 
thing as a real NGO in China. They're collaborating together. 
The reason Mr. To can survive is that he has three advantages. 
He's the descendent of Mr. Sun Yatsen, he's an American 
citizen, and he used to work on Wall Street. Otherwise, he 
could have been arrested many times already.
    Ms. Oldham-Moore. Okay.
    Dr. Gao  [via translator, Mr. Bob Fu]. So there's no such 
thing as civil society, or civil organizations in China, or 
independent. They're all government-run, GONGOs. Like the 
Women's Federation, they're supposed to be grassroots 
organizations, but they're all controlled by the government. 
So, they're just collaborating with the government. I was very 
sad when, in 2007 during my first trip to the United States, I 
was followed by the Chinese Government agents. Every night in 
my own room, they reported about my activities late at night. 
Fortunately, this time I'm not followed, so far, by the Chinese 
agents.
    Ms. Oldham-Moore. Thank you.
    Did she want to make just some final comments? Then we need 
to close down.
    Dr. Gao  [via translator, Mr. Bob Fu]. Just, my final word 
is, don't just burn your money in China. Find an effective way 
to really help the people. My second point is, the main 
majority, the primary channel of the AIDS infection is still 
through blood transfusion. The government's main concern is to 
protect its own ruling interests, their own authoritative rule, 
while leaving many people suffering. So I myself really am 
still suffering like that.
    My purpose for the rest of my life, even to leave today, is 
really just to expose this truth and what benefit there is for 
me to continue to live in this world. I cannot sustain myself, 
having difficult conditions physically. Thanks to Mr. Jin Zhong 
to hurry up and make the first book available. I'm still 
waiting for a publisher to publish the second and third book of 
mine. I just want to reveal this truth to the outside world 
before I die.
    Ms. Oldham-Moore. Thank you, Dr. Gao. Thank you, Abbey 
Story and Bob Fu. Dr. Gao, you certainly have awakened us. We 
are so grateful to have you here. No doubt you will accomplish 
in the next year what many of us can't in the entirety of our 
lives. So, thank you very much.
    [Whereupon, at 11:36 a.m., the roundtable was concluded.]




                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
